 U.S. Department of the Interior
 Office of Inspector General




           SURVEY REPORT


          CONTRACTING FOR
REFORESTATION AND FOREST DEVELOPMENT,
     BUREAU OF LAND MANAGEMENT

             REPORT NO. 95-I-1405
               SEPTEMBER 1995
                                                                                         i



           United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                                 Washington, D.C. 20240




MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY:



Attached for your information is a copy of the subject survey report.

The Bureau of Land Management’s Oregon State Office and three district offices
awarded and administered their reforestation and forest development contracts for
fiscal years 1992 through 1994 in accordance with applicable laws and regulations.
Contract files at the State Office and district offices were thorough and complete and
reflected the chronology of events that took place during the contract award and
administration process. In addition, these contracts were normally awarded to those
individuals and companies that submitted the lowest responsive offer or quote. Also,
district and resource office personnel monitored contractor performance to ensure
that the contractors complied with the terms and conditions of the contracts and that
the work was performed as required. The report contained no recommendations,
since no deficiencies were disclosed by the review.

If you have any questions concerning this matter, please contact me at (202) 208-’
5745.



Attachment
                                                                           W-IN-BLM-O02-95

             United States Department of the Interior
                               OFFICE OF INSPECTOR GENERAL
                                      Headquarters Audits
                                     1550 Wilson Boulevard
                                            Suite 401
                                      Arlington, VA 22209



                  MEMORANDUM SURVEY REPORT

To:        Director, Bureau of Land Management

From:


Subject: Contracting for Reforestation and Forest Development, Bureau of Land
         M a n a g e m e n t (No. 95-I-1405)

                                  INTRODUCTION

This report presents the results of our survey of contracts awarded by the Bureau of
Land Management for reforestation and forest development in western Oregon. The
objective of the survey was to determine whether the Bureau’s Oregon State and
District Offices: (1) awarded and administered contracts for reforestation and forest
development in accordance with applicable laws and regulations and (2) ensured that
contractors complied with the terms and conditions of the contracts.

BACKGROUND

The Bureau of Land Management is responsible for managing about 2.4 million
acres of Oregon and California Railroad grant lands and Coos Bay Wagon Road
grant lands in western Oregon. These lands were revested or reconveyed to the
Bureau under the Oregon and California Revested Lands Sustained Yield
Management Act of August 28, 1937. The Act provided for the management,
protection, and development of timber resources and for the operation, maintenance,
reforestation, and other improvements on the lands. The Act requires that timber
                                                                                 2
be sold, cut, and removed in accordance with the principle of “sustained yield.”



l
The Bureau of Land Management, as used in this report, includes the Oregon State Office and its
10 district offices. Six of the 10 district offices (Coos Bay, Eugene, Lakeview, Medford, Roseburg,
and Salem) are responsible for administering reforestation and forest development programs.
2
Sustained yield entails managing the forest lands in accordance with approved resource management
plans to provide a permanent source of timber supply. The sustained yield of forest products
contributes to the economic stability of local communities and to continuing forest values.
To maintain the sustainability of forest resources, the Bureau’s forestry program for
western Oregon includes reforestation and forest development activities to prompt
forest regeneration after timber harvesting and to ensure that new forests will grow
at rates projected in the approved resource management plans developed by the
Bureau. Reforestation and forest development activities include site preparation;
tree planting; protection of newly planted seedlings from vegetation and animals; and
growth enhancing and forest health practices, such as density control, prescribed
burning, fertilization, pruning, and genetic tree improvements.

To accomplish these activities, the Bureau enters into contracts with qualified
individuals and companies. Title 48 of the Code of Federal Regulations sets forth
                                                                                        3
the requirements for the acquisition and administration of Government contracts.
Contracts in excess of $25,000 are awarded by the contracting officer in the Oregon
State Office, whereas contracts for less than $25,000 are awarded by contracting
officers at the district offices. During fiscal years 1992 through 1994, the contracting
officer in the Bureau’s Oregon State Office awarded 264 contracts, totaling about
$25 million, for reforestation and forest development activities in western Oregon,
while contracting officers at the six district offices with reforestation and forest
development programs awarded 325 such contracts, totaling over $3 million. The
State Office and district office contracting officers are responsible for administering
their respective contracts, while district and resource area office personnel, acting in
the capacity of contracting officer representatives or project inspectors, are usually
responsible for ensuring contractor performance regardless of contract amount.

SCOPE OF SURVEY

The audit survey was made, as applicable, in accordance with the “Government
Auditing Standards,” issued by the Comptroller General of the United States.
Accordingly, we included such tests of records and other auditing procedures that
were considered necessary under the circumstances. Our survey, conducted during
the period June through August 1995, included an evaluation of the contracting
activities of the Bureau of Land Management’s State Office in Portland, Oregon, and
                                                                            4
the Bureau’s District Offices in Medford, Roseburg, and Coos Bay, Oregon, during
fiscal years 1992 through 1994 and visits to various Bureau forest lands. As part of
the survey, we performed an evaluation of the Bureau’s system of internal controls


3
 The regulations establish requirements for: (1) acquisition planning, including solicitation of offers,
advertising, competition, award, and contract performance; (2) contracting methods and contract
types, including small purchases, sealed bidding, and negotiation; (3) socioeconomic programs,
including small business concerns and application of labor laws; and (4) contract management,
including administration, modifications, subcontracting, and termination.

4
These three districts were selected because they had the largest reforestation and forest development
programs.

                                                   2
related to awarding and administering reforestation and forest development contracts
to the extent we considered necessary to accomplish the audit objective. In this
regard, we also relied on a September 1994 Technical Procedures Review conducted
by the Bureau’s Washington, D.C. office (see Results of Survey section). Our
evaluation did not disclose any material weaknesses. We also reviewed the
Department of the Interior’s Annual Statement and Report, required by the Federal
Managers’ Financial Integrity Act, for fiscal years 1992 through 1994 and determined
that none of the Department’s reported weaknesses were related to the objective and
scope of this audit.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has
issued any reports on the Bureau of Land Management’s contracting for
reforestation and forest development. The Office of Inspector General did issue the
February 1994 report “Forestry Operations in Western Oregon, Bureau of Land
Management” (No. 94-I-359), which discussed the Bureau’s reforestation and forest
development program. This report stated that the Bureau continued to experience
significant reforestation and forest development backlogs because it did not request
or receive sufficient funding through the budget process to eliminate these backlogs
and because forestry program funds of about $5.4 million were used for overhead
costs of programs not related to forestry. The Bureau concurred with the intent of
the report’s three recommendations but did not agree that there was a backlog in
tree planting. The recommendations were referred to the Assistant Secretary for
Policy, Management and Budget for tracking of implementation.

                          RESULTS OF SURVEY

We found that the Bureau of Land Management’s Oregon State Office and the
Medford, Roseburg, and Coos Bay District Offices awarded and administered their
reforestation and forest development contracts for fiscal years 1992 through 1994 in
accordance with applicable laws and regulations. We reviewed 30 contracts, totaling
about $5.3 million, awarded by the State Office and 50 contracts, totaling about
$668,000 awarded by the three district offices. Contract files located at the State and
District Offices were thorough and complete and reflected the chronology of events
that took place during the contract award and administration processes. The State
and District Office contracting officers normally awarded the reforestation and forest
development contracts to those individuals and companies that submitted the lowest
responsive offer or quote.

In addition, major contracts and small purchases at the Oregon State Office and
purchases at the Coos Bay, Eugene, and Prineville District Offices were addressed
in a September 1994 Technical Procedures Review issued by the Bureau’s


                                           3
Washington, D.C. office. The Review concluded that the contracting operation in
the State Office ranged from “very good to excellent” and that contracting activities
were efficient and effective, primarily because of the capabilities of the procurement
staff. The Review also concluded that the small purchasing function in the State
                                                            5
Office was “very good’ and that the procurement function was “generally good” at
the Coos Bay and Prineville District Offices and “outstanding” at the Eugene District
Office.

We also found that district and resource area office personnel monitored contractor
performance to ensure that the contractors complied with the terms and conditions
of the contracts and that the work was performed as required. For example, we
found that project inspectors generally monitored the contractors’ performance on
a daily basis and reduced payments to the contractors when the quality of work was
substandard or when the time allowed by the contracts was exceeded. In six cases
where the contractors did not comply with the contract requirements, the contracts
were terminated.

On September 26, 1995, we discussed the results of our review and a draft of this
report with officials from the Bureau’s Oregon State Office, who agreed with the
conclusions contained in the report.

Since this report does not contain any recommendations, a response is not required.
However, if you have any questions regarding this report, please contact Mr. George
Lincoln, Senior Auditor, or Mr. Robert Williams, Regional Audit Manager, Western
Region, at (916) 979-2700.




cc: Director, Oregon State Office - Bureau of Land Management
     Manager, Medford District Office - Bureau of Land Management
     Manager, Roseburg District Office - Bureau of Land Management
     Manager, Coos Bay District Office - Bureau of Land Management




5
    The procurement function reviewed at the district offices represented all types of purchases under
$25,000, including purchase and/or delivery orders, blanket purchase agreements, imprest fund
transactions, and credit card transactions.

                                                    4
               ILLEGAL OR WASTEFUL ACTIVITIES
                   SHOULD BE REPORTED TO
             THE OFFICE OF INSPECTOR GENERAL BY:


Sending written documents to:                                  Calling:


                     Within the Continental United States


U.S. Department of the Interior                          Our 24-hour
Office of Inspector General                              Telephone HOTLINE
P.O. Box 1593                                            1-800-424-5081 or
Arlington, Virginia 22210                                (703) 235-9399

                                                         TDD for the hearing impaired
                                                         (703) 235-9403 or
                                                         1-800-354-0996


                     Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                          (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building &Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                                  North Pacific Region

U.S. Department of the Interior                          (700) 550-7279 or
Office of Inspector General                              COMM 9-011 -671 -472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
